Appendix la - Order Denying Rehearing by Panel
UNITED STATES COURT OF APPEALS FOR
THE EIGHTH CIRCUIT
No: 19-2113
Donald Henderson Scott and Carolyn Yvonne Scott
Appellants
v.
U.S. Bank National Association as Trustee, for
Bayview Financial Mortgage Pass-Through
Certificates, Series 2005, et al.
Appellees

Appeal from U.S. District Court for the Western
District of Missouri - Kansas City
(4:19-cv-00308-DGK)

ORDER
The petition for rehearing by the panel is denied.
September 13, 2019

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans
11

Appendix 2a - Judgment Dismissing the Appeal
UNITED STATES COURT OF APPEALS FOR
THE EIGHTH CIRCUIT
No: 19-2113
Donald Henderson Scott; Carolyn Yvonne Scott
Appellants
v.
U.S. Bank National Association as Trustee, for
Bayview Financial Mortgage Pass-Through
Certificates, Series 2005; M&T Bank; Bayview Loan
Servicing LLC; David Boman, Southlaw, P.C.; Rob
Clifton; Anderson Law, LLC; Mortgage Electronic
Registration Systems, Inc.; Mila Homes, LLC;
Corinthian Mortgage Corporation; Security Land
Title Company
Appellees
Appeal from U.S. District Court for the Western
District of Missouri - Kansas City
(4:19-cv-00308-DGK)
JUDGMENT
Before LOKEN, SHEPHERD, and GRASZ, Circuit
Judges.
The court has carefully reviewed the original
file of the United States District Court and grants
the motion to dismiss this appeal for lack of
jurisdiction.
August 07, 2019
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans
12

Appendix 3a - Order Denying Appeal from
Bankruptcy Court
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF MISSOURI
WESTERN DIVISION
Donald Henderson Scott )
and
)
Carolyn Yvonne Scott, )
)
Plaintiffs/Appellants,
)
)
v.
) No. 4:19-cv-00308-DGK
)
U.S. Bank National
)
Association Trustee For ) Bk. Case No. 18-42696
Bayview Financial
) Adversary Proceeding
Mortgage Pass-Through ) No. 19-04006
Certificates, Series 2005, )
et al.,
)
)
Defendants/Appellees. )
ORDER DENYING APPEAL FROM
BANKRUPTCY COURT
This bankruptcy appeal arises from a statecourt foreclosure. Pro se appellants Donald H. Scott
and Carolyn Y. Scott sought to avoid the imminent
loss of their home by filing suit in the Circuit Court of
Clay County, Missouri. They notably did not seek
shelter under an automatic bankruptcy stay. After
several adverse rulings, they commenced a
bankruptcy proceeding and removed the state-court
action to the bankruptcy court. They did not consent
to the bankruptcy court entering a final judgment on
13

the removed claims and demanded a jury trial. The
bankruptcy court permissively abstained from
hearing the adversary proceeding and remanded the
state-law causes of action.
Now before the Court is Appellants' appeal
(Doc. 4) of the bankruptcy court's order. They contend
that abstention deprives them of their right to a jury
trial under the Seventh Amendment) The order is
AFFIRMED, however, because the bankruptcy court
has broad discretion to abstain from hearing state-law
claims and because the Seventh Amendment does not
guarantee a federal jury trial absent an independent
basis for jurisdiction.
Background
Facing foreclosure, Appellants sued Appellee
Corinthian Mortgage in state court. They alleged that
the company forged a modified deed of trust, which
nullified the original deed. Appellants' home was sold
to Appellee Mila Homes, LLC, and Appellants
amended their complaint to assert a claim of wrongful
foreclosure. Appellants sought an order declaring that
they own their former residence; declaring that they
owe nothing under the original deed; voiding the
trustee sale, note, and deed of trust; and awarding
them $539,073.52—the principal and interest they
allegedly paid on the loan.
Appellants filed a chapter 13 bankruptcy
petition and, as the state court prepared to rule on
dispositive motions, removed their state-law claims to
1 Appellants state that lilt is in the public interest that jury
trials under the Seventh Amendment of the Constitution remain
inviolate at the federal level." Although it not clear from
Appellants' briefing—a two-page collection of bullet points—they
appear to argue that the Seventh Amendment grants them an
absolute right to a jury trial in federal court.

14

the bankruptcy court, where they demanded a jury
trial. The bankruptcy court decided that even though
it could exercise its "non-core" jurisdiction over the
removed claims, it should abstain under 28 U.S.C. §
1334(c)(1). The bankruptcy court remanded the
adversary proceeding to state court, and Appellants
appealed.
Standard
A district court acts as an appellate court with
respect to bankruptcy orders. In re Falcon Prods., Inc.,
497 F.3d 838, 841 (8th Cir. 2007). It reviews the
bankruptcy court's "legal determinations de novo and
findings of fact for clear error." Id. (quoting In re
Fairfield Pagosa, Inc., 97 F.3d 247, 252 (8th Cir.
1996)). Issues committed to the bankruptcy court's
discretion are reviewed for "an abuse of that
discretion." In re Farmland Indus., Inc., 397 F.3d 647,
650 (8th Cir. 2005) (citation omitted). "The
bankruptcy court abuses its discretion when it fails to
apply the proper legal standard or bases its order on
findings of fact that are clearly erroneous." Id. at 651
(citation omitted).
Discussion
Appellants argue that the bankruptcy court
erred in abstaining. They claim doing so denied them
their right to a jury trial under the Seventh
Amendment. This argument lacks merit. 28 U.S.C. §
1334(c)(1) accords bankruptcy courts broad discretion
to refrain from hearing proceedings in the interests of
justice or comity with state courts. See Greenpond S.,
LLC v. Gen. Elec. Capital Corp., No. 14-cv-1214
(SRN/TNL), 2015 WL 225227, at *5 (D. Minn. Jan. 16,
2015). The right to a jury is just one factor courts
consider when deciding whether to abstain, see In re
Foss, 328 B.R. 780, 783-84 (B.A.P. 8th Cir. 2005), and
here the bankruptcy court properly found that it
15

weighs in favor of remand. See In re Loewen Grp. Int'l,
Inc., 344 B.R. 727, 731 (Bankr. D. Del. 2006) ("Where
such right exists, whether waived or not, it is
indicative that, in the absence of federal issues which
give a right to a jury trial, a state law claim lies at the
heart of the action." (internal quotations and citation
omitted)). Moreover, although the Seventh
Amendment does generally confer a right to a jury
trial, it does not itself grant Appellants the right to
litigate in federal court. See Nails v. Countrywide
Home Servs., LLC, 279 Fed. Appx. 824, 825 (11th
Cir.2008).
The Court has reviewed the rest of the
bankruptcy court's order and finds it well reasoned.
The bankruptcy court correctly concluded that the
clear majority of Foss factors favor abstention. The
Court agrees, for example, that remand would more
efficiently resolve the removed claims, given
Appellants' demand for a jury trial and their lack of
consent to the bankruptcy court's authority. In
addition, the removed claims present predominately
state-law issues, and hearing them would
unnecessarily burden the dockets of both the
bankruptcy and district courts. Also significant is that
28 U.S.C. § 1334 serves as the only basis for federal
jurisdiction over the claims. Thus, even if Appellants'
demand for a jury trial did not support abstention, the
bankruptcy court would still be well within its bounds
to remand the proceeding.
Conclusion
The bankruptcy court did not abuse its
discretion. The order abstaining from and remanding
Appellants' adversary proceedings to the Circuit

16

COurt of Clay County, Missouri, is therefore
AFFIRMED.2
IT IS SO ORDERED.
Date: May 14, 2019
/s/ Greg Kays
Greg Kays, Judge United States District Court

2 In light of this result, Appellants' other motions are DENIED
AS MOOT. These include a motion to stay (Doc. 2) and three
motions to remove Appellees (Docs. 8, 9, and 10).

17

Appendix 4a - Order Abstaining and Remanding
Adversary Proceeding to the Circuit Court of Clay
County Missouri
IN THE UNITED STATES BANKRUPTCY
COURT FOR THE WESTERN
DISTRICT OF MISSOURI
IN RE:
)
) Case No. 18-42696
Donald Henderson Scott )
and
)
Carolyn Yvonne Scott
) Chapter 13
Debtors
)
)
Donald Henderson Scott )
and
)
Carolyn Yvonne Scott, )
Plaintiffs,
)
v.
) Adversary No. 19-4006
U.S. Bank National
)
Association Trustee for )
Bayview Financial
)
Mortgage Pass-Through )
Certificates, Series 2005, )
M&T Bank,
)
Bayview Loan Servicing, )
LLC, Rob Clifton,
)
Anderson Law, LLC,
)
Mila Homes, LLC,
)
Corinthian Mortgage
)
Corporation, Security
)
Land Title Company, and)
South Law, P.C.,
)
Defendants.
)

18

ORDER ABSTAINING AND REMANDING
ADVERSARY PROCEEDING TO THE
CIRCUIT COURT OF CLAY COUNTY,
MISSOURI
Plaintiffs Donald and Carolyn Scott were facing
the imminent foreclosure of their home in early
August 2018. Instead of seeking shelter under the
bankruptcy automatic stay, the Scotts commenced
this action in the Circuit Court of Clay County,
Missouri (as case number 18CY-CV07714), seeking
"cancellation of written instruments, quiet title,
declarative relief, [and] to assert the non-existence of
a default on a loan."
Only after a series of unfavorable rulings in
state court did the Scotts finally file their bankruptcy
petition. Later, as the state court prepared to rule on
dispositive motions, the Scotts removed the state court
action to this court. Here, the Scotts expressly do not
consent to this court entering a final judgment on the
removed causes of action, and they demand a trial by
jury—potentially requiring multiple trials in the
District Court and this court on some of the same
matters.
Defendants Mila Homes, LLC; Rob Clifton; and
Anderson Law, LLC move for the court to dismiss or
remand this action. They argue the court should
dismiss for lack jurisdiction or, alternatively, abstain
and remand on equitable grounds. Having considered
the arguments the parties advanced in their filings
and at hearings in this adversary proceeding, and for
the reasons explained below, the court agrees with the
defendants and sends this action back to state court.
Accordingly, the court (1) DENIES defendants'
motion to dismiss, (2) permissively ABSTAINS from
deciding the removed causes of action in this
19

adversary proceeding, and (3) REMANDS the
removed causes of action to the Circuit Court of
Clay County, Missouri.
FINDINGS OF FACT
The court described much of the applicable
history to this dispute in detail in its December 18,
2018, order denying the Scotts' motion to stay rulings
and orders pending appeal in the Scotts' lead
bankruptcy case. No. 18-42696, ECF No. 130. The
court incorporates by reference the findings of fact in
that order, and makes the following additional
findings of relevant facts in connection with this
proceeding:
Plaintiffs Donald and Carolyn Scott filed their
state court petition on August 2, 2018, alleging that
after they executed a note and deed of trust in favor of
Defendant Corinthian Mortgage in August 2000,
Corinthian Mortgage forged and recorded a modified
deed of trust without the Scotts' consent. Though they
do not assert the allegedly forged deed of trust altered
any material terms, they argue the alleged forgery
nullified the original deed of trust, invalidated the
promissory note the Scotts executed to finance the
purchase of their home, and "discharged [their]
obligations" to repay the amount they borrowed. The
Scotts also request the court order U.S. Bank (the
most recent loan servicer) to pay the Scotts
$539,073.52—the amount of principal and interest the
Scotts allege they paid on the loan from its inception.
Despite their clear goal of retaining their home,
it appears the Scotts did not ask the state court to
enjoin the foreclosure sale.
Consequently, the
foreclosure sale occurred as scheduled on August 9,
2018, and the home sold to Mila Homes, LLC. On
20

August 17, 2018, the Scotts amended their state court
petition to add a count for wrongful foreclosure and to
add defendants Rob Clifton; Anderson Law, LLC; and
Mila Homes, LLC. At an evidentiary hearing before
this court on November 7, 2018, Mr. Scott reported
that matters in the state court case were ripe for
ruling.
The Scotts filed their chapter 13 bankruptcy
petition on October 16, 2018. After conducting an
evidentiary hearing on November 7, 2018, concerning
the automatic stay and the state court litigation, this
court determined that, based on the limited facts
presented, the automatic stay likely did not apply to
the state court action. Nevertheless, the court
terminated any automatic stay that might apply to the
state court action to allow the parties to proceed with
the litigation the Scotts initiated against the
defendants. Moreover, because the Scotts stated at
the November 7 hearing that they preferred this court
resolve all the state law issues, the court exercised its
discretion under 28 U.S.C. § 1334(c)(1) to permissively
abstain from determining any issue in the state court
action.
Thereafter, the state court scheduled a hearing
on several dispositive motions—including a motion to
dismiss the state court action—for January 15, 2019.
However, the day before the scheduled hearing, on
January 14, 2019, the Scotts filed with this court and
the state court a notice of removal of the state court
action. But for reasons unknown, the clerk of the state
court failed to enter the notice of removal on the state
court docket before the January 15, 2019, hearing.
Apparently unaware of the removal, the state court
judge held the hearing on January 15, 2019, and
21

dismissed the state court action. The Scotts did not
attend that hearing.
In the removed causes of action, among other
relief, the Scotts request orders or judgments (1)
declaring the Scotts own their former residence free
and clear of any lien; (2) voiding the trustee sale, note,
and deed of trust; (3) declaring the Scotts owe nothing
under the note they executed to finance the purchase
of their residence; and (4) awarding the Scotts
$539,073.52, together with prejudgment interest, in
restitution on the allegedly rescinded note and deed of
trust. The Scotts demand a jury trial on the removed
causes of action. They expressly do not consent to this
court entering a final judgment on the removed causes
of action.
With this background in mind, the court now
addresses the motion to dismiss or abstain and
remand.
DISCUSSION
A.
The Court Denies Defendants' Motion to
Dismiss
The defendants first ask the court to dismiss
this proceeding, alleging this court lacks jurisdiction
for two reasons: (1) "because the [Scotts] failed to
effectuate the removal of the State Court Action prior
to the January 16, 2019[,] Dismissal order entered by
the State Court"; and (2) because the court lacks
subject matter jurisdiction under 28 U.S.C. § 1452 and
Fed. R. Bank. P. 9027.
Now that the Scotts have provided sufficient
proof that they filed the notice of removal in state
court on January 14, Mila Homes concedes the Scotts
effected removal before the state court dismissed the
case. See Anthony v. Runyon, 76 F.3d 210, 214 (8th
Cir. 1996). Once a party effects removal, the court
where the action originates loses jurisdiction over the
22

removed causes of action, and any decision that court
makes post-removal is void. See Ward v. Resolution
Tr. Corp., 972 F.2d 196, 198 (8th Cir. 1992) (holding
post-removal state court dismissal void). Thus, the
state court lost jurisdiction on January 14, 2019, and
the state court's January 16, 2019, order dismissing
the case is void.
Having determined this case survived the state
court's purported dismissal, the court must next
determine whether it may exercise jurisdiction over
the removed causes of action under 28 U.S.C. §§ 1334
and 157. Specifically, a bankruptcy court
must possess both statutory and constitutional
authority to enter a final judgment in a case. Stern v.
Marshall, 564 U.S. 462, 482-503 (2011).
Analysis of a bankruptcy court's statutory
authority to exercise jurisdiction over a removed cause
of action begins with 28 U.S.C. § 1452, which permits
removal if there is jurisdiction over the removed cause
of action under 28 U.S.C. § 1334. Sections 1334 and
157 authorize district courts and, by extension
through reference under 28 U.S.C. § 157(a),
bankruptcy courts to exercise jurisdiction over "core
proceedings" and "non-core related" proceedings.3 28
U.S.C. §§ 157, 1334. Wellness Int'l Network, Ltd. v.
Sharif, 135 S. Ct. 1932, 1940 (2015). A court may not
adjudicate a cause of action if it lacks both core and
non-core "related to" statutory jurisdiction over the
cause of action. See The Foley Co. v. Aetna Casualty
& Surety Co. (In re S & M Constructors, Inc.), 144 B.R.

The Unites States District Court for the Western District of Missouri
referred all bankruptcy matters on August 15, 1984. Order Regarding
Reference of Bankruptcy Matters to United States Bankruptcy Judges,
the
court's
website
at
available
on
www.mow.uscourts.gov/bankruptcy/rules.

3

23

855, 860-63 (Bankr. W.D. Mo. 1992) (determining
court lacked authority to adjudicate case).
Core proceedings include those that arise under
title 11 or arise in a case under title 11. Stern, 564
U.S. at 476. Section 157 provides a nonexclusive list
of sixteen examples of statutorily "core proceedings,"
including "orders to turn over property of the estate;"
"determinations of the validity, extent, or priority of
liens;" and "other proceedings affecting . . . the
adjustment of the debtor-creditor or the equity
security holder relationship." Sharif, 135 S. Ct. at
1940; 28 U.S.C. §§ 157(b)(2)(E), (K), (0).
In contrast, a state law cause of action that
would "exis[t] without regard to any bankruptcy
proceeding" is a non-core proceeding and may be
"related to" a bankruptcy case if the cause of action
seeks to "augment the bankruptcy estate." See Stern,
564 U.S. at 499 (explaining Granfinanciera, S.A. v.
Nordberg, 492 U.S. 33 (1989)). In the Eighth Circuit,
a court has non-core "related to" jurisdiction over a
proceeding if "the outcome of that proceeding could
conceivably have any [e]ffect on the estate being
administered in bankruptcy." Dogpatch Props., Inc. v.
Dogpatch U.S.A., Inc. (In re Dogpatch U.S.A., Inc.),
810 F.2d 782, 786 (8th Cir. 1987) (explaining non-core
jurisdiction in case predating Stern v. Marshall).
However, even if §§ 1334 and 157 authorize a
bankruptcy court to exercise statutory jurisdiction,
Article III of the Constitution and separation of
powers prevent a bankruptcy court from entering final
judgment on any cause of action that "from its nature,
is the subject of a suit at common law, or equity, or
admiralty" and any statutorily "non-core" cause of
action. See Stern, 564 U.S. at 484 (quoting Murray's
Lessee v. Hoboken Land & Improvement Co., 59 U.S.
272, 284 (1855)); Sharif, 135 S. Ct. at 1951-52.
24

Absent the parties' consent, in a non-core related
cause of action, the bankruptcy court may submit a
report and recommendation with proposed findings of
fact and conclusions of law to a district court for de
novo review. Stern, 564 U.S. at 475; Sharif, 135 S. Ct.
at 1940. However, parties may expressly or impliedly
consent to the bankruptcy court hearing and issuing a
final judgment in a non-core related cause of action.
Sharif, 135 S. Ct. at 1947-49.
In this case, the court has non-core "related to"
jurisdiction over the removed causes of action, but the
court lacks constitutional authority to enter a final
judgment. The removed causes of action are non-core
because they are purely state law causes of action that
existed independent of—in fact, were filed months
before—the Scotts' bankruptcy case. Among other
relief, the Scotts request orders quieting title to their
former residence; declaring the note, deeds of trust,
and trustee sale void; and requiring the defendants to
return the residence to the Scotts. Though an order
resolving those requests may affect the
administration of the bankruptcy estate— namely,
whether the residence is property of the estate,
whether any of the defendants have a lien or other
interests in the residence, and the nature of any
debtor-creditor relationship between the Scotts and
the defendants—the removed causes of action
themselves are not core proceedings. In fact, the
Scotts expressly state they do not consent to the court
entering a final judgment on the removed causes of
action. Thus, the Scotts recognize the non-core nature
of the removed causes of action.
However, the removed causes of action could
conceivably affect the Scotts' bankruptcy estate. The
outcome of the removed causes of action will
determine whether the residence is property of the
25

bankruptcy estate, and whether a debtor-creditor
relationship exists between the Scotts and any
defendant. Thus, the removed causes of action are
non-core related.
Because the removed causes of action are noncore, Article III of the Constitution and separation of
powers prevent this court from entering a final
judgment on those matters. Generally, the court could
issue a report and recommendation with proposed
findings of fact and conclusions of law to the District
Court as to any issue that does not invoke the Scotts'
Seventh Amendment right to trial by jury.
However, the Scotts limit this court's authority
to issue a report and recommendation by invoking
their Seventh Amendment right to a jury trial on the
removed causes of action. A bankruptcy court may
conduct a jury trial only if, among other prerequisites,
all parties expressly consent to the bankruptcy court
conducting a jury trial. 28 U.S.C. § 157(e); Fed. R.
Bankr. P. 9015(a); Fed. R. Civ. P. 38(b)(1), (d) (listing
four prerequisites). Absent all prerequisites, this
court's local rules provide that the action will remain
in the bankruptcy court until the conclusion of all
pretrial proceedings and then transfer to the District
Court for the jury trial. L.R. 9015-1.F.
Here, this court cannot conduct a jury trial
because the parties have not expressly consented.
Instead, as to all matters that invoke the Scotts' right
to a jury trial, this court may only conduct pretrial
proceedings. When those matters are ready for trial,
this court must transfer them to the District Court for
jury trial.
Overall, dismissal for lack of jurisdiction is not
appropriate because, as stated above, this court could
exercise non-core "related to" jurisdiction. The court
therefore denies the defendants' motion to dismiss.
26

However, for the reasons the court will explain below,
the court declines to exercise that jurisdiction and
instead abstains from considering the removed causes
of action and remands them back to the state court.
B.
The Court Abstains from Hearing the
Removed Causes of Action
A bankruptcy court has the power to abstain
from hearing certain disputes under 28 U.S.C. § 1334.
A court may permissively abstain under § 1334(c)(1).
In contrast, § 1334(c)(2) mandates abstention in
certain proceedings. While mandatory abstention
under § 1334(c)(2) might have applied here, no party
has made a timely motion for the court to abstain
pursuant to § 1334(c)(2).
Consequently, only
permissive abstention applies in this proceeding.
1.
Permissive Abstention
As an alternative to dismissal, the defendants
ask the court to permissively abstain from hearing the
Scotts' removed causes of action. A party or the court,
sua sponte, may raise the issue of whether the court
should permissively abstain from considering a cause
of action. Stabler v. Beyers (In re Stabler), 418 B.R.
764, 769 (B.A.P. 8th Cir. 2009).
Under the permissive abstention doctrine, a
bankruptcy court has "broad discretion to abstain
from hearing state law claims whenever appropriate
in the interest of justice, or in the interest of comity
with State courts or respect for State law." Gober v.
Terra + Corp. (In re Gober), 100 F.3d 1195, 1206 (5th
Cir. 1996); 28 U.S.C. § 1334(c)(1) (2012). "Because [28
U.S.C. § 1334(c)(1)] speaks in general concepts, i.e.,
the 'interest of justice' and 'interest of comity,' courts
have developed specific criteria to determine whether
abstention is warranted." Stabler, 418 B.R. at 769.
27

In In re Foss, the Eighth Circuit Bankruptcy
Appellate Panel (BAP) explained a bankruptcy court
should consider the following twelve factors when
deciding whether to permissively abstain:
the effect or lack thereof on the efficient
administration of the estate if a court
recommends abstention;

the extent to which state law issues
predominate over bankruptcy issues;

the difficult or unsettled nature of the
applicable law;

the presence of a related proceeding
commenced in state court or other
nonbankruptcy court;

the jurisdictional basis, if any, other
than 28 U.S.C. § 1334;

28

the degree of relatedness or remoteness
of the proceeding to the main bankruptcy
case;

the substance rather than the form of an
asserted core proceeding;

the feasibility of severing state law
claims from core bankruptcy matters to
allow judgments to be entered in state court
with enforcement left to the bankruptcy
court;

the burden [on] the bankruptcy court's
docket;

the likelihood that the commencement
of the proceeding involves forum shopping
by one of the parties;

29

the existence of a right to a jury trial;
and

the presence in the proceeding of
nondebtor parties.

328 B.R. 780, 783-84 (B.A.P. 8th Cir. 2005).
If a bankruptcy court determines a majority of
these factors are present, then the court should
abstain. Stabler, 418 B.R. at 770. 'Courts should
apply these factors flexibly, for their relevance and
importance will vary with the particular
circumstances of each case, and no one factor is
necessarily determinative."' Williams v. Citifinancial
Mortg. Co. (In re Williams), 256 B.R. 885, 894 (B.A.P.
8th Cir. 2001) (quoting Matter of Chicago, Milwaukee,
St. Paul & Pacific Railroad Co., 6 F.3d 1184, 1189 (7th
Cir. 1993)).
For the reasons stated below, in the interest of
comity with state courts and respect for state law,
and because the vast majority of the twelve
abstention factors are present and favor permissive
abstention, the court exercises its discretion to
permissively abstain from considering the removed
causes of action under 28 U.S.C. § 1334(c)(1).
Factor 1: Effect or Lack Thereof on the Efficient
Administration of the Estate if the Court
Recommends Abstention
Here, permissive abstention fosters the efficient
administration of the Scotts' bankruptcy estate. The
Scotts do not consent to the court's authority to enter
30

any final decision relating to their removed causes of
action. Instead, the Scotts would have this court (a)
hear all proceedings relating to matters for which the
Scotts do not have a right to a jury trial and issue a
report and recommendation with proposed findings of
fact and conclusions of law for the District Court's de
novo review and (b) conduct all pretrial proceedings on
issues for which the Scotts have a right to a jury trial
and then transfer those causes of action to the District
Court for the jury trial. Alternatively, if the court
permissively abstains from considering the removed
causes of actions and remands them back to state
court, the state court can conduct a jury trial and sits
ready to hear and rule on several dispositive motions
that have been pending for several months. Though
the outcome of the removed causes of action might
affect the bankruptcy estate, the court may efficiently
administer the bankruptcy estate without
adjudicating the removed causes of action. Therefore,
it is more efficient for the administration of the estate
if the court permissively abstains. This factor favors
permissive abstention.
Factor 2: Extent to Which State Law Issues
Predominate over Bankruptcy Issues
"[P]ermissive abstention is most appropriate
when a case is dominated by state law issues or raises
unsettled issues of state law." In re G—I Holdings, 580
B.R. 388, 426 (Bankr. D.N.J. 2018) (quoting U.S.
Home Corp. Los Prados Cmty. Ass'n, Inc. (In re U.S.H.
Corp. of New York), 280 B.R. 330, 337 (Bankr.
S.D.N.Y. 2002) (citing Thompson v. Magnolia
Petroleum Co., 309 U.S. 478, 483 (1940)). See also
Nat'l Union Fire Ins. Co. of Pittsburgh, Pa., v. Titan
Energy, Inc. (In re Titan Energy, Inc.), 837 F.2d 325,
332 (8th Cir. 1988) (opining that "abstention is
particularly compelling" when proceeding is based on
31

state law and bears a limited connection to the
bankruptcy case).
Here, state law issues dominate the removed
causes of action. The Scotts demand a jury trial on all
counts of the removed causes of action: cancellation of
written instruments, quiet title, declarative relief,
asserting the non-existence of default on a loan,
common-law restitution, and wrongful foreclosure
under Mo. Rev. Stat. § 443.320 (2000). All claims in
this action are state law claims. There are no claims
based on the Bankruptcy Code. Therefore, this factor
favors permissive abstention.
Factor 3: Difficult or Unsettled Nature of
Applicable Law
The claims asserted in this action are purely
state law causes of action that do not appear to raise
difficult or unsettled issues of law. The state court
can, and should, adjudicate them easily and quickly.
This factor favors permissive abstention.
Factor 4: Presence of Related Proceeding
Commenced in State Court or Other NonBankruptcy Court
Although there was a separate unlawful
detainer action in the Associate Circuit Court of Clay
County, Missouri (18-CY-CV08708), the state court
has already issued a final judgment in that action.
The court is aware of no other related proceeding
commenced in state court or other nonbankruptcy
forum. This factor does not apply.
Factor 5: Jurisdictional Basis Other than 28
U.S.C. § 1334
Jurisdiction under § 1334 is the only basis for
jurisdiction. This factor favors permissive abstention.
Factor 6: Relatedness/Remoteness to the Main
Bankruptcy Case
32

The removed causes of action involve only state
law issues and arguably only remotely relate to the
Scotts' main bankruptcy case. But if the Scotts are
successful on some or all of their theories, it could alter
the landscape of the Scotts' main bankruptcy case by
increasing the property of the estate and adding
creditors with claims against the estate. At a
minimum, the outcome should determine who will
receive the excess proceeds of the foreclosure sale.
Thus, the Scotts' causes of action might have more
than a contingent or peripheral impact on their
bankruptcy estate.
Cf. Titan Energy, 837 F.2d at 332. This factor weighs
against permissive abstention.
Factor 7: Substance Rather than Form of an
Asserted Core Proceeding
There are no core proceedings in this removed
cause of action.
This factor favors permissive
abstention.
Factor 8: The Feasibility of Severing State Law
Claims from Core Bankruptcy Matters to Allow
Judgments to Be Entered in State Court with
Enforcement Left to the Bankruptcy Court
None of the claims in this action are core
matters, a position the Scotts conceded when they
expressly declined to consent to the bankruptcy court
entering a final judgment on any of the removed
causes of action. This factor favors permissive
abstention.
Factor 9: Burden on the Bankruptcy Court's
Docket
It would unnecessarily burden the bankruptcy
court's—as well as the District Court's—docket to
hear the removed causes of action for the following
reasons: (1) the removed causes of action are noncore
related proceedings raising only state law issues; (2)
33

the removed causes of action will likely require
evidentiary hearings, legal briefing, and significant
pretrial motions practice; (3) the court will have to
prepare a report and recommendation with proposed
findings of fact and conclusions of law for the District
Court to review de novo on any issues not tried to a
jury; and (4) the District Court will have to conduct a
jury trial on all issues that may be tried before a jury.
For all these reasons, this factor favors permissive
abstention.
Factor 10: The Likelihood the Commencement
of the Proceeding Involves Forum Shopping by
one of the Parties
In In re Stabler, the Eighth Circuit BAP
affirmed the bankruptcy court's decision to
permissively abstain when the debtors allowed a state
court lawsuit to proceed for a substantial period of
time before removing the lawsuit to bankruptcy court.
418 B.R. 764, 770 (B.A.P. 8th Cir. 2009).
Here, the Scotts initially brought this action in
state court on August 2, 2018. After the foreclosure
sale of their home, the Scotts chose to remain in state
court and amended their state court petition to add a
wrongful foreclosure count. Additionally, the Scotts
chose to stay in state court even after Mila Homes filed
a separate unlawful detainer action against them.
Indeed, the Scotts did not file their bankruptcy
petition until more than two months after initially
filing their state court lawsuit, and even then, they did
not choose to remove either state court lawsuit when
they commenced their bankruptcy case. Finally, the
Scotts waited to remove until January 14, 2019, one
day before the state court was to hear dispositive
motions filed by the defendants, and more than four
months after they filed the state court petition.
34

Considering these facts, the timing and
circumstances of the Scotts' removal of their state
court lawsuit appear to reflect that removal was
merely an "attempt to circumvent decisions of the
state court in which they chose to proceed . . . and [to]
secure a different or better result in [federal] court."
Stabler, 418 B.R. at 770.
Therefore, this factor strongly favors permissive
abstention.
Factor 11: The Existence of a Right to a Jury
Trial
The Scotts demand a jury trial on all the
removed causes of action and expressly do not consent
to this court entering a final order or judgment. This
factor favors permissive abstention.
Factor 12: The Presence in the Proceeding of
Nondebtor Parties
Here, the Scotts have named eleven nondebtor
parties as defendants in this adversary proceeding.
Many of these defendants have not appeared in the
Scotts' main bankruptcy case or this adversary
proceeding. The presence of eleven nondebtor parties
favors permissive abstention.
Overall, the court determines ten of the twelve
factors (factors 1, 2, 3, 5, 7, 8, 9, 10, 11, and 12) favor
permissive abstention, one factor (factor 4) does not
apply, and one factor (factor 6) weighs against
abstention. Accordingly, in the interest of comity with
state courts and respect for state law, the court
exercises its discretion to abstain from hearing the
removed causes of action under 28 U.S.C. § 1334(c)(1).
2.
Law of the Case
In their motion to dismiss, the defendants
correctly state that the court already abstained from
35

determining the issues in the Scotts' state court
lawsuit under
§ 1334(c)(1) in its order entered on November 9, 2018
(No. 18-42696, ECF No. 54). The defendants request
the court treat its previous order in the Scotts' main
bankruptcy case as the "law of the case," meaning the
court's previous decision to abstain should require the
court to remand the Scotts' removed causes of action
back to state court.
Because the court has already explained why it
will permissively abstain from hearing the Scotts'
removed causes of action, it is unnecessary for the
court to address the defendants' law of the case
argument. See In re G-I Holdings, 580 B.R. 388, 432
(Bankr. D.N.J. 2018).
C. The Court Remands the Removed Causes of
Action to the State Court
The defendants ask the court to remand this
case to the state court. Federal Rule of Bankruptcy
Procedure 9027 and 28 U.S.C. § 1452(b) authorize a
court to remand a removed cause of action on "any
equitable ground." Fed. R. Bankr. P. 9027; 28 U.S.C.
§ 1452(b).
In determining whether any equitable ground
justifies remand, courts consider the twelve
permissive abstention factors, together with the
following four additional "remand factors": "(1)
whether remand serves principles of judicial economy;
whether there is prejudice to unremoved parties;
whether the remand lessens the possibilities of
inconsistent results; and (4) whether the court where
the action originated has greater expertise." Zahn
Law Firm, P.A. v. Baker (In re Baker), 577 B.R. 308,
311 (B.A.P. 8th Cir. 2017) (citing Sears v. Sears (In re
Sears), 539 B.R. 368, 372 (D. Neb. 2015)).
36

In this case, equity justifies remand because the
abstention factors and two of the three applicable
remand factors favor remand. As to the remand
factors, factor two does not apply becauSe there are no
unremoved parties. Remand factor three is neutral
because this court will administer the Scott's
bankruptcy case in conformity with the state court's
determination of the causes of action. However, for
the following reasons, remand factors one and four
heavily favor remand.
As to remand factor one, remand will serve
principles of judicial economy. As this adversary
proceeding, the state court case, and the Scotts' lead
bankruptcy case demonstrate, the Scotts have
repeatedly delayed final adjudication and prevented
unfavorable rulings by switching forums and judges.
These delay tactics have wasted court resources—both
at the state level and federal level.
Furthermore, as explained above, because none
of the causes of action are core proceedings and the
Scotts demand a jury trial and expressly do not
consent to this court entering final orders or
judgment, this court cannot enter a final judgment on
any matter. Instead, the court must bifurcate the
matters in this case into two categories: issues the
court must determine and issues a jury must
determine. As to all matters the court must
determine, the court must issue a report and
recommendation with proposed findings of fact and
conclusions of law to the District Court for de novo
review—effectively requiring two courts to consider
and rule on those issues, further wasting judicial
resources and delaying final judgment. As to all
issues a jury must determine, this court would
prepare those matters for a jury trial, but the District
Court would conduct the jury trial. This process is
37

unduly cumbersome, and unnecessarily uses both this
court's and the District Court's resources. To the
contrary, the state court may adjudicate all causes of
action and conduct any jury trial. Remand, therefore,
minimizes further delay and wastefulness and places
all causes of action before a single court, thus serving
principles of judicial economy.
Last, remand factor four outweighs any other,
and requires remand. The state court, where the
Scotts initiated this action, has greater expertise in
determining the removed causes of action because
state law issues dominate the removed causes of
action. Thus, remand will allow the court with the
greatest expertise to adjudicate the removed causes of
action.
In conclusion, because (1) ten of the twelve
abstention factors favor remand, (2) remand serves
principles of judicial economy, and (3) remand will
allow the court with the greatest expertise to
adjudicate the removed causes of action, twelve of the
sixteen total factors weigh in favor of remand. Thus,
equity compels this court to remand this proceeding to
the state court.
CONCLUSION
For the reasons set forth above, the court
DENIES defendants' motion to dismiss, permissively
ABSTAINS from deciding the removed causes of
action, and
REMANDS this proceeding to the Circuit Court of
Clay County, Missouri.
IT IS SO ORDERED.
Dated: 4/9/19

/s/ Brian T. Fenimore
U.S. Bankruptcy Judge
38

Appendix 5a - 28 U.S.C. § 158. Appeals
(a) The district courts of the United States shall have
jurisdiction to hear appeals [1]
from final judgments, orders, and decrees;
from interlocutory orders and decrees issued under
section 1121(d) of title 11 increasing or reducing the
time periods referred to in section 1121 of such title;
and
with leave of the court, from other interlocutory
orders and decrees;
of bankruptcy judges entered in cases and proceedings
referred to the bankruptcy judges under section 157 of
this title. An appeal under this subsection shall be
taken only to the district court for the judicial district
in which the bankruptcy judge is serving.
(b)
(1) The judicial council of a circuit shall establish a
bankruptcy appellate panel service composed of
bankruptcy judges of the districts in the circuit who
are appointed by the judicial council in accordance
with paragraph (3), to hear and determine, with the
consent of all the parties, appeals under subsection (a)
unless the judicial council finds that—
there are insufficient judicial resources available
in the circuit; or
establishment of such service would result in
undue delay or increased cost to parties in cases under
title 11.
Not later than 90 days after making the finding, the
judicial council shall submit to the Judicial
Conference of the United States a report containing
the factual basis of such finding.
(2)
(A) A judicial council may reconsider, at any time, the
finding described in paragraph (1).
39

On the request of a majority of the district judges
in a circuit for which a bankruptcy appellate panel
service is established under paragraph (1), made after
the expiration of the 1-year period beginning on the
date such service is established, the judicial council of
the circuit shall determine whether a circumstance
specified in subparagraph (A) or (B) of such paragraph
exists.
On its own motion, after the expiration of the 3year period beginning on the date a bankruptcy
appellate panel service is established under
paragraph (1), the judicial council of the circuit may
determine whether a circumstance specified in
subparagraph (A) or (B) of such paragraph exists.
If the judicial council finds that either of such
circumstances exists, the judicial council may provide
for the completion of the appeals then pending before
such service and the orderly termination of such
service.
Bankruptcy judges appointed under paragraph (1)
shall be appointed and may be reappointed under
such paragraph.
If authorized by the Judicial Conference of the
United States, the judicial councils of 2 or more
circuits may establish a joint bankruptcy appellate
panel comprised of bankruptcy judges from the
districts within the circuits for which such panel is
established, to hear and determine, upon the consent
of all the parties, appeals under subsection (a) of this
section.
An appeal to be heard under this subsection shall
be heard by a panel of 3 members of the bankruptcy
appellate panel service, except that a member of such
service may not hear an appeal originating in the
district for which such member is appointed or
designated under section 152 of this title.
40

(6) Appeals may not be heard under this subsection by
a panel of the bankruptcy appellate panel service
unless the district judges for the district in which the
appeals occur, by majority vote, have authorized such
service to hear and determine appeals originating in
such district.
(c)
(1) Subject to subsections (b) and (d)(2), each appeal
under subsection (a) shall be heard by a 3-judge panel
of the bankruptcy appellate panel service established
under subsection (b)(1) unless—
the appellant elects at the time of filing the appeal;
or
any other party elects, not later than 30 days after
service of notice of the appeal;
to have such appeal heard by the district court.
(2) An appeal under subsections (a) and (b) of this
section shall be taken in the same manner as appeals
in civil proceedings generally are taken to the courts
of appeals from the district courts and in the time
provided by Rule 8002 of the Bankruptcy Rules.
(d)
The courts of appeals shall have jurisdiction of
appeals from all final decisions, judgments, orders,
and decrees entered under subsections (a) and (b) of
this section.
(A) The appropriate court of appeals shall have
jurisdiction of appeals described in the first sentence
of subsection (a) if the bankruptcy court, the district
court, or the bankruptcy appellate panel involved,
acting on its own motion or on the request of a party
to the judgment, order, or decree described in such
first sentence, or all the appellants and appellees (if
any) acting jointly, certify that41

the judgment, order, or decree involves a question
of law as to which there is no controlling decision of
the court of appeals for the circuit or of the Supreme
Court of the United States, or involves a matter of
public importance;
the judgment, order, or decree involves a question
of law requiring resolution of conflicting decisions; or
an immediate appeal from the judgment, order, or
decree may materially advance the progress of the
case or proceeding in which the appeal is taken;
and if the court of appeals authorizes the direct appeal
of the judgment, order, or decree.
(B) If the bankruptcy court, the district court, or the
bankruptcy appellate panel—
on its own motion or on the request of a party,
determines that a circumstance specified in clause (i),
(ii), or (iii) of subparagraph (A) exists; or
receives a request made by a majority of the
appellants and a majority of appellees (if any) to make
the certification described in subparagraph (A);
then the bankruptcy court, the district court, or the
bankruptcy appellate panel shall make the
certification described in subparagraph (A).
(C) The parties may supplement the certification with
a short statement of the basis for the certification.
(D) An appeal under this paragraph does not stay any
proceeding of the bankruptcy court, the district court,
or the bankruptcy appellate panel from which the
appeal is taken, unless the respective bankruptcy
court, district court, or bankruptcy appellate panel, or
the court of appeals in which the appeal is pending,
issues a stay of such proceeding pending the appeal.
(E) Any request under subparagraph (B) for
certification shall be made not later than 60 days after
the entry of the judgment, order, or decree.
42

Appendix 6a - 28 U.S.C. § 1334. Bankruptcy cases
and proceedings

(a) Except as provided in subsection (b) of this section,
the district courts shall have original and exclusive
jurisdiction of all cases under title 11.
(b) Except as provided in subsection (e)(2), and
notwithstanding any Act of Congress that confers
exclusive jurisdiction on a court or courts other than
the district courts, the district courts shall have
original but not exclusive jurisdiction of all civil
proceedings arising under title 11, or arising in or
related to cases under title 11.
(c)
Except with respect to a case under chapter 15 of
title 11, nothing in this section prevents a district
court in the interest of justice, or in the interest of
comity with State courts or respect for State law, from
abstaining from hearing a particular proceeding
arising under title 11 or arising in or related to a case
under title 11.
Upon timely motion of a party in a proceeding
based upon a State law claim or State law cause of
action, related to a case under title 11 but not arising
under title 11 or arising in a case under title 11, with
respect to which an action could not have been
commenced in a court of the United States absent
jurisdiction under this section, the district court shall
abstain from hearing such proceeding if an action is
commenced, and can be timely adjudicated, in a State
forum of appropriate jurisdiction.
(d) Any decision to abstain or not to abstain made
under subsection (c) (other than a decision not to
abstain in a proceeding described in subsection (c)(2))
is not reviewable by appeal or otherwise by the court
43

of appeals under section 158(d), 1291, or 1292 of this
title or by the Supreme Court of the United States
under section 1254 of this title. Subsection (c) and this
subsection shall not be construed to limit the
applicability of the stay provided for by section 362 of
title 11, United States Code, as such section applies to
an action affecting the property of the estate in
bankruptcy.
(e) The district court in which a case under title 11 is
commenced or is pending shall have exclusive
jurisdiction—
of all the property, wherever located, of the debtor
as of the commencement of such case, and of property
of the estate; and
over all claims or causes of action that involve
construction of section 327 of title 11, United States
Code, or rules relating to disclosure requirements
under section 327.
Appendix 7a - 28 U.S.C. § 1367. Supplemental
jurisdiction

Except as provided in subsections (b) and (c) or as
expressly provided otherwise by Federal statute, in
any civil action of which the district courts have
original jurisdiction, the district courts shall have
supplemental jurisdiction over all other claims that
are so related to claims in the action within such
original jurisdiction that they form part of the same
case or controversy under Article III of the United
States Constitution. Such supplemental jurisdiction
shall include claims that involve the joinder or
intervention of additional parties.
In any civil action of which the district courts have
original jurisdiction founded solely on section 1332 of
44

this title, the district courts shall not have
supplemental jurisdiction under subsection (a) over
claims by plaintiffs against persons made parties
under Rule 14, 19, 20, or 24 of the Federal Rules of
Civil Procedure, or over claims by persons proposed to
be joined as plaintiffs under Rule 19 of such rules, or
seeking to intervene as plaintiffs under Rule 24 of
such rules, when exercising supplemental jurisdiction
over such claims would be inconsistent with the
jurisdictional requirements of section 1332.
(c) The district courts may decline to exercise
supplemental jurisdiction over a claim under
subsection (a) if—
the claim raises a novel or complex issue of State
law,
the claim substantially predominates over the
claim or claims over which the district court has
original jurisdiction,
the district court has dismissed all claims over
which it has original jurisdiction, or
in exceptional circumstances, there are other
compelling reasons for declining jurisdiction.
(d) The period of limitations for any claim asserted
under subsection (a), and for any other claim in the
same action that is voluntarily dismissed at the same
time as or after the dismissal of the claim under
subsection (a), shall be tolled while the claim is
pending and for a period of 30 days after it is
dismissed unless State law provides for a longer
tolling period.
(e) As used in this section, the term "State" includes
the District of Columbia, the Commonwealth of
Puerto Rico, and any territory or possession of the
United States.

45

Appendix 8a - 28 U.S.C. § 1447. Procedure after
removal generally
In any case removed from a State court, the district
court may issue all necessary orders and process to
bring before it all proper parties whether served by
process issued by the State court or otherwise.
It may require the removing party to file with its
clerk copies of all records and proceedings in such
State court or may cause the same to be brought
before it by writ of certiorari issued to such State
court.
A motion to remand the case on the basis of any
defect other than lack of subject matter jurisdiction
must be made within 30 days after the filing of the
notice of removal under section 1446(a). If at any time
before final judgment it appears that the district court
lacks subject matter jurisdiction, the case shall be
remanded. An order remanding the case may require
payment of just costs and any actual expenses,
including attorney fees, incurred as a result of the
removal. A certified copy of the order of remand shall
be mailed by the clerk to the clerk of the State court.
The State court may thereupon proceed with such
case.
An order remanding a case to the State court from
which it was removed is not reviewable on appeal or
otherwise, except that an order remanding a case to
the State court from which it was removed pursuant
to section 1442 or 1443 of this title shall be reviewable
by appeal or otherwise.
If after removal the plaintiff seeks to join
additional defendants whose joinder would destroy
subject matter jurisdiction, the court may deny
46

joinder, or permit joinder and remand the action to the
State court.
Appendix 9a - 28 U.S.C. § 1452. Removal of claims
related to bankruptcy cases
A party may remove any claim or cause of action in
a civil action other than a proceeding before the
United States Tax Court or a civil action by a
governmental unit to enforce such governmental
unit's police or regulatory power, to the district court
for the district where such civil action is pending, if
such district court has jurisdiction of such claim or
cause of action under section 1334 of this title.
The court to which such claim or cause of action is
removed may remand such claim or cause of action on
any equitable ground. An order entered under this
subsection remanding a claim or cause of action, or a
decision to not remand, is not reviewable by appeal or
otherwise by the court of appeals under section 158(d),
1291, or 1292 of this title or by the Supreme Court of
the United States under section 1254 of this title.

47

